Pension Benefit Guaranty Corporation
     Office of Inspector General
       Memorandum Report




     Lessons Learned from FY 2005
       Financial Statement Audit




            April 6, 2006
                                    2006-10/FA-0023
                     Pension Benefit Guaranty Corporation
                                                   Office of Inspector General
                                      1200 K Street, N.W., Washington, D.C. 20005-4026



                                                                            April 6, 2006


                                      MEMORANDUM


TO:              Bradley D. Belt
                 Executive Director

                 James C. Gerber
                 Chief Financial Officer

FROM:            Luther L. Atkins
                 Assistant Inspector General for Audit

SUBJECT:         Lessons Learned from FY 2005 Financial Statement Audit


Introduction

We are pleased to note that overall the Corporation continues to improve its financial
management activities. In 2005, the Corporation received its thirteenth consecutive
unqualified opinion on its fiscal year (FY) 2005 financial statements and met the
government-wide reporting deadline of November 15. Examples of continued
improvement include the Corporation’s correction of two of the five reportable conditions
cited in the FY 2004 financial statement audit report. A great deal of this year’s success
can be attributed to a strong commitment by top-level PBGC management to take
corrective actions to address needed improvements.

In January 2006, the Inspector General (IG) in cooperation with the Chief Financial Officer
(CFO) conducted a survey to identify lessons learned during the audit of the FY 2005
financial statements. PBGC and Clifton Gunderson (CG) employees primarily responsible
for the preparation and audit of the financial statements were asked to provide feedback
on the processes and procedures that:

        •   worked well and were successful (best practices)
        •   could be improved, and
        •   could potentially impact the FY 2006 audit.

After the survey responses were compiled, the key stakeholders, including the CFO, IG,
and CG managing partner, met in February 2006 to discuss the survey results and
provide suggestions for improvements. Our goal is to incorporate best practices into our
audit of the financial statements and improve on those practices and procedures that were



                                                                           2006-10/FA-0023
not efficient or effective. We thank the CFO, CG, and other stakeholders for their
dedication in producing our second lessons learned report.

Results in Brief

Respondents to our survey identified a number of best practices and areas where our
processes and procedures can be improved upon. Best practices identified include:
   •   CG’s notice of findings report notified managers in a written format of identified
       audit findings and recommendations. This served as an early warning system to
       management of potential findings and gave management an opportunity to
       respond and discuss with the auditors before disclosure in a draft report.
   •   Following the theme of reporting early, CG also provided a copy of their internal
       control report to the Corporation in mid-October, about a month earlier than in past
       years.
   •   Regular audit status meetings with key stakeholders were a means to provide
       information on audit issues, obstacles, and time lines.
   •   The CFO began conducting quarterly close meetings, and auditors were invited to
       participate in open discussion about the various financial statement accounts. In
       last year’s lessons learned report, we said that closing the financial records more
       often during the year would reduce the pressure to close the records at year-end
       and help meet the November 15 deadline.

There were also a number of suggestions for improvement in the financial processes and
procedures. The details and specific comments are included in the body of this report.
However, one overriding theme we want to highlight should go a long way towards
promoting accountability and improving communications. There was general agreement
among the participants that management should have one point of contact that is
responsible for coordinating and directing management activities supporting the audit.
Because the CFO is ultimately accountable for the financial statement and providing
supporting documents and evidence to auditors, he should be responsible for overseeing
these activities. This would include ensuring that:
   • Documents on a single Provided by Client (PBC) list are provided to auditors on
       time,
   • Corrective actions for reportable conditions and material weaknesses are fully
       implemented, documented and provided to auditors,
   • Corrective actions for management letter items are documented and available, and
   • Financial reporting activities are fully coordinated with stakeholders of the
       corporation.

In addition, CG would prepare a single management letter, rather than one for financial
issues and another for information technology issues.

While all of these lessons learned are important, there are two ongoing initiatives that we
believe will help make meeting the annual November 15 deadline a more routine business
practice:
    • continuing to close the financial records quarterly, and
    • completing the consolidation of the Corporation’s three general ledgers.




                                             2
                                                                           2006-10/FA-0023
Survey Results

Some of the topics discussed in the Lessons Learned from FY 2004 Financial Statement
Audit (OIG report 2005-12/23193) were identified again this year, in particular,
communications, responsibility for and commitment to the process, and integration of
financial systems.

Examples of how Communications worked well

Several processes designed to improve communications were introduced or refined this
year:

       •   Notice of Findings and Recommendations (NFRs),
       •   Audit status meetings held with key stakeholders,
       •   CFO’s third and fourth quarterly financial close meetings, and
       •   Preliminary draft of internal control report.

Notice of Findings and Recommendations--CG provided written NFRs during the audit so
that management was made aware as soon as feasible of the issues identified by the
auditors. This process facilitated the resolution of any disagreements with the facts or
recommended corrective actions and allowed management time to understand the issues
and determine whether the auditors had all relevant information.

Audit Status Meetings--Beginning in late September, key stakeholders met for regular
audit status meetings. Stakeholders included PBGC management, CG partners and
senior managers, and OIG representatives. These meetings were primarily a means for
CG to provide information on audit issues, obstacles, and time lines; however, they also
provided an opportunity for management to ask questions and express any concerns.
The meetings were very effective in ensuring that upper management was kept informed
and involved in the audit process.

Quarterly Close Meetings--CG’s managing partner and senior manager and OIG staff
were included in the CFO’s quarterly financial close meetings. The auditors were given
the chance to listen to the presentations and ask questions. Since this was CG’s first year
as PBGC’s financial statement auditors, these meetings also helped CG gain an
understanding of PBGC.

Early Internal Control Report--For the first time, PBGC management received a
preliminary draft internal control report for comment in mid-October. CG’s early
preparation of the internal control report facilitated the communication process and
allowed management an opportunity to bring forth any comments, questions, or concerns
early on in the reporting process. An additional preliminary draft was provided in early
November to allow comments before the issuance of the official draft for comment.




                                              3
                                                                            2006-10/FA-0023
Examples of how Communications can still be improved

Auditors can improve communications by clarifying procedures for performing the audit.
Some survey comments indicated that the auditors did not give sufficient notice of visits,
requested that additional information be provided too quickly, made duplicate requests for
the same information and did not speak with the subject matter expert on a particular
issue.

CG can also improve communications by preparing a single management letter in FY
2006, rather than one for financial issues and another for information technology issues.

Management can improve the way it communicates follow-up actions to correct
recommendations from prior years’ financial statement audits and the status of planned
corrective actions. For example:

   •   PBGC provided the auditors with a memorandum detailing the status of open audit
       recommendations as of 6/30/05. Although each recommendation was included,
       the comments section for several recommendations indicated “status pending,”
       instead of providing a discussion of the status of the corrective action. In addition,
       there was no standardized documentation and review process to support the
       closure of corrective actions. There was also confusion on who was responsible
       for maintaining documentation of corrective actions.

   •   In some cases, CG found that although PBGC indicated that corrective actions
       were completed, inadequate or no support to justify completion and closing the
       recommendation was provided and there was no evidence of management review
       of the closure. For some recommendations, conflicting information was provided
       to CG on whether corrective actions had been completed.

Suggestions to Improve Communications

1. Clearly define roles and responsibilities for documenting corrective actions for audit
   recommendations. Specifically:
           • Assign responsibility for receipt, distribution, and maintenance of all
               updates on the status of corrective actions one individual.
           • Be proactive in providing documentation that corrective actions are
               complete to the responsible individual.
           • Provide monthly reports to the CFO on the status of corrective actions.
           • Provide routine reports to auditors on time lines for corrective actions and
               expected closure dates so the auditors can plan their testing accordingly.

2. The auditors will look for opportunities to familiarize PBGC managers and staff on the
   purpose, scope, and methodology of the audit. This will promote a better
   understanding of the audit process and the reasons why auditors need requested
   information.




                                             4
                                                                            2006-10/FA-0023
3. Start audit status meetings earlier in the audit, perhaps even during the planning
   phase. In addition to these regular audit status meetings, the CFO, CG managing
   partner, and IG will hold periodic meetings to address important issues and situations,
   as appropriate.

4. Identify PBGC subject matter experts and determine their role in assisting the auditors
   in understanding their area of expertise.

5. Provide documentation of PBGC’s internal controls testing earlier in the audit process.


Examples of how Responsibility and Commitment worked well

When the audit started, PBGC and the auditors agreed on information that would be
provided during the course of the audit. This information was included on a list commonly
referred to as the Provided By Client (PBC) list. A separate list was prepared for
information technology (IT) and financial matters.

PBGC staff members were very effective in managing the financial matters PBC list
process and coordinating PBGC’s responses to auditors’ requests. The responsible staff
members were organized and responsive to CG thus enabling the auditors to effectively
gather the needed information to perform the audit. As part of this process, PBGC, CG,
and OIG representatives attended weekly PBC list meetings to discuss PBC items coming
due within the next two-week period. This facilitated communication between CG and
PBGC of any delays (or accelerations) in providing information as well as clarification on
any of the requests. In addition, these meetings were used by both CG and PBGC to
discuss any concerns relating to the audit. Key success factors included the following:
        • One PBGC employee was responsible for handling the detailed tracking of the
            PBC list. This included ensuring that the persons responsible for a deliverable
            knew when and what information was to be provided.
        • One CG auditor was responsible for coordinating the PBC list requests to
            PBGC and responses from PBGC.
        • The PBGC Controller’s involvement in the PBC list process in both an
            oversight and “enforcement” role was key to ensuring that the audit stayed on
            track.
        • The CG Senior Manager’s involvement in the PBC list process in a similar
            oversight and “enforcement” role was also key to timely completion of the
            audit.
        • A single financial matters PBC list was maintained.




                                             5
                                                                           2006-10/FA-0023
Examples of how Responsibility and Commitment can be improved

The process for managing the IT PBC list should be changed. Unlike the single financial
matters PBC list, there were several IT PBC lists addressed to individual departments.
Although a PBGC employee was identified as the primary contact for PBC requests, there
was a lack of coordination and central tracking of the lists. The PBC lists were not
updated on a regular basis. The information requested by the auditors and the
department responsible for delivery was not always clearly defined. There were also
disagreements on whether items were delivered to CG.

PBGC, CG and OIG representatives met biweekly to discuss the IT PBC lists, instead of
weekly, until later in the audit process. Problems generally were not resolved during
these meetings. In addition, representatives from all the responsible departments did not
attend the meetings.

PBGC referred the auditors, particularly IT, to PBGC’s portal and intranet for
documentation. However, the auditors found that documentation available on the PBGC
portal was not consistent with documentation on the PBGC intranet. More than one
version of documentation of procedures was available on the portal and intranet. These
inconsistencies led to inefficient use of the auditors’ time in determining the official PBGC
document.

Suggestions to Improve Responsibility and Commitment

1. The CFO is committed to be accountable for preparation of the financial statements
   and will emphasize this accountability. The IG, along with CG’s managing partner, will
   emphasize their accountability for the audit of the statements. This responsibility then
   will be delegated, but key leaders should be kept informed of issues and resolve them
   as they arise.

2. Consolidate the PBC list for financial and IT matters into one list, and adopt
   procedures similar to the best practices used for managing the 2005 financial matters
   PBC list process. Conduct weekly meetings throughout the audit to discuss the PBC
   items coming due within the next two-week period.

3. Conduct planning meetings with CG, OIG and key players in PBGC to discuss the
   logistics of maintaining the PBC list. These meetings should address how the list
   should be structured; the format, method and means of delivery and storage of
   documents; and how to update the PBC list for documents requested during the audit
   that were not on the original list.

4. Assign responsibility for each deliverable to an individual to ensure that the official
   PBGC document is given to the auditor.




                                              6
                                                                              2006-10/FA-0023
Events with Potential Impact on FY 2006 Audit

PBGC plans to implement a new general ledger system, Consolidated Financial System
(CFS), during FY 2006. This new system is part of PBGC’s corrective action plan to
resolve the continuing reportable condition in the FY 2005 internal control report
concerning lack of integration of PBGC’s financial systems.

Suggestions

1. PBGC should proactively share planned data conversion procedures with the auditors.
   This will allow auditors to verify the completeness and accuracy of converted data
   earlier in the process.

2. Auditors need to conduct an early assessment of the impact of the CFS project
   implementation on the procedures, testing and financial reporting for the FY 2006
   audit.

3. Auditors should consider performing interim testing prior to June because the
   Controller’s Office will be performing the conversion process during June.

cc:    Vince Snowbarger
       Robert Emmons
       Steve Barber
       Bill Hulteng
       Theodore Winter
       Rick Hartt
       Marty Boehm
       Wayne McKinnon
       Joan Weiss




                                            7
                                                                         2006-10/FA-0023
